UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2006
Eddie A. Poindexter
Plaintiff - Appellant
v.
Dexter Payne, Director, Arkansas Department of Correction
Defendant - Appellee
Appeal from U.S. District Court for the Eastern District of Arkansas - Northern
(3:20-cv-00009-DPM)
JUDGMENT

Before COLLOTON, WOLLMAN, and KOBES, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed. The first and
second motions titled, Petition to subpoena administrative segregation status assignment sheets,
Arkansas Department of Corrections are denied. The first and second motions for successive
habeas petitions are denied. The first and second motions to proceed on appeal in forma pauperis
are denied. The motion titled, "Amended Pro Se Motion for Belated new Trial Under FRCP Rule
33" is denied.
September 18, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
Appellate Case: 20-2006

Page: 1

Date Filed: 09/18/2020 Entry ID: 4957239

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2006
Eddie A. Poindexter
Appellant
v.
Dexter Payne, Director, Arkansas Department of Correction
Appellee

Appeal from U.S. District Court for the Eastern District of Arkansas - Northern
(3:20-cv-00009-DPM)
ORDER
The petition for rehearing by the panel is denied.
October 26, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-2006

Page: 1

Date Filed: 10/26/2020 Entry ID: 4969209

Case 3:20-cv-00009-DPM Document 45 Filed 05/11/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
NORTHERN DIVISION
EDDIE A. POINDEXTER
ADC #121353
v.

PETITIONER

No. 3:20-cv-9-DPM

DESTER PAYNE, Director,
Arkansas Division of Correction

RESPONDENT

JUDGMENT
Poindexter's petition is dismissed with prejudice.

D.P. Marshall Jr.
United States District Judge
I! M*-y £.02.0

